KENNETH LEVENTHAL’S BILLINGS FOR DUE DILIGENCE SERVICES
 UNDER BASIC ORDERING AGREEMENT 700-90-0014 AND LETTER
              AGREEMENT DATE MAY 26, 1992




                   Audit Report No. 99-023
                       April 22, 1999




                  OFFICE OF AUDITS

           OFFICE OF INSPECTOR GENERAL
                               TABLE OF CONTENTS
BACKGROUND                                                                           3

OBJECTIVE, SCOPE, AND METHODOLOGY                                                    4

RESULTS OF AUDIT                                                                     6

UNALLOWABLE AND UNSUPPORTED BILLINGS FOR REQUIRED AND
OPTIONAL TASKS                                                                       6

      Loans Excluded from the Sale after Inclusion in the Loan Database              7

      Other Required and Optional Tasks                                              7

UNALLOWABLE AND UNSUPPORTED HOURLY LABOR BILLINGS                                    9

      Bear Stearns Audit Compare                                                     9

      Additional Services at Field Sites                                            10

      Allocation of Management and Fixed Costs                                      11

      Accounting Services                                                           11

UNALLOWABLE SITE LEASING AND OUT-OF-POCKET EXPENSES                                 12

      Site Leasing Expenses                                                         12

      Out-of-Pocket Expenses                                                        12

CONCLUSIONS AND RECOMMENDATIONS                                                     13

CORPORATION COMMENTS AND OIG EVALUATION                                             13


APPENDIXES

Appendix I:   Corporation Comments                                                  14

Appendix II: Management Responses to Recommendations                                18


TABLES

Table 1: E&Y's Billings and the OIG’s Questioned Costs under Contract 700-90-0014    6



                                           1
Table 2: Questioned Costs for Required and Optional Tasks           7

Table 3: Questioned Costs for Other Required and Optional Tasks     8

Table 4: Questioned Costs for Labor Billings                        9

Table 5: Questioned Costs for Additional Services at Field Sites   10

Table 6: Questioned Costs for Out-of-Pocket Expenses               12




                                           2
Federal Deposit Insurance Corporation                                                                       Office of Audits
Washington, D.C. 20434                                                                         Office of Inspector General




   DATE:             April 22, 1999

   TO:               Michael J. Rubino
                     Associate Director, Acquisition Services Branch
                     Division of Administration



   FROM:             Sharon M. Smith
                     Director, Field Audit Operations

  SUBJECT:           Kenneth Leventhal’s Billings for Due Diligence Services under Contract
                     700-90-001 and Letter Agreement Dated May 26, 1992 (Audit Report No. 99-023)


   This report presents the results of an audit of Kenneth Leventhal and Company’s billings to the
   Resolution Trust Corporation (RTC) under basic ordering agreement (BOA) 700-90-0014 for
   bulk sales valuation services and a letter agreement dated May 26, 1992 (together, hereinafter
   referred to as contract 700-90-0014).1 This is the Office of Inspector General’s (OIG) third
   report on Ernst & Young’s (E&Y) due diligence contract billings to the RTC.2

   BACKGROUND

   The RTC’s Office of Contracts entered into BOA 700-90-0014 with E&Y on December 12,
   1990. Under that BOA, E&Y was to provide valuation services for the RTC assets included in
   large bulk sale transactions. On May 26, 1992, the RTC’s Sales Center executed a letter
   agreement with E&Y under that BOA to perform due diligence of mortgage loans included in the
   RTC’s 1992 C-5 sales initiative. The securitization unit in the RTC’s Sales Center awarded and
   administered the letter agreement without any involvement from the RTC’s Office of Contracts.

   E&Y’s New York, New York, office supervised the due diligence of RTC loans at eight sites
   throughout the United States. In addition, the RTC used the services of Bear Stearns &
   Company to underwrite, securitize (analyze the RTC’s inventory of assets, assess investor

   1
    Kenneth Leventhal merged with Ernst & Young (E&Y) in June 1995. Because E&Y was the successor organization, it
   provided the OIG with access to Kenneth Leventhal documents and addressed the audit findings. Accordingly, E&Y is
   used synonymously with Kenneth Leventhal throughout this report.
   2
    The first report was entitled Ernst & Young Kenneth Leventhal Real Estate Group’s Billings for Due Diligence
   Services Contract 700-93-0039-011, Task Orders 700-004 and 700-014 (audit report number 98-001, dated
   January 5, 1998). The second report was entitled Kenneth Leventhal’s Billings for Due Diligence Services Under
   Contract 700-90-0014, Letter Agreement Dated January 6, 1993 (audit report number 98-074, dated July 31, 1998).



                                                           3
markets, and structure sales packages), market, and sell the mortgage loans included in the
1992 C-5 sales initiative. In its role as lead underwriter, Bear Stearns worked closely with E&Y
to decide which loans would be included in the sale and performed a quality control audit of
E&Y’s loan data files provided to potential buyers, servicers, and rating agencies.

One of E&Y’s core tasks was data collection and verification—reviewing loan files and
summarizing information on file abstract forms (FAF). The type of FAF required was based on
the loan balance—under $200,000 for critical; $200,000 to $999,999 for short; and $1,000,000
and over for long forms. The contract specified that the RTC would pay for the various FAF
types using E&Y’s proposed not-to-exceed caps per FAF. Included in the not-to-exceed caps
were hourly labor rates for five occupational categories plus reasonable out-of-pocket expenses
for travel and per diem. The contract did not specify different not-to-exceed caps for due
diligence on loans removed from the transaction versus those loans included in the securitization
transaction. In total, E&Y billed for 3,591 loans that were included in the sales transaction,
313 loans deleted from the sale after being input into the loan database, and 496 loans deleted
before being input into the loan database.

The letter agreement specified that all required tasks were included in the not-to-exceed caps for
FAF preparation. The required (or core) tasks included loan pool preparation, loan file review,
compilation of electronic loan database, updating loan information, and ongoing assistance. In
addition to the core tasks, the contract also provided for several optional tasks at different
not-to-exceed caps. Examples of optional tasks included property inspection reports and net
operating income (NOI) requests and analyses.

In our entrance conference, E&Y’s government segment leader stated that RTC representatives
orally modified the contract from billing the lesser of hourly or fixed fees per loan to “whatever
was billed” which was a combination of fixed and hourly fees. To support that contention,
E&Y’s government segment leader provided the names of former RTC officials who E&Y
claimed had orally modified the contract. The contracting environment in RTC during 1992-93
was such that contracts were made without the involvement of the Office of Contracts and oral
modifications were possible. Therefore, we interviewed six former RTC officials and one Bear
Stearns official. Five of the RTC officials stated that they did not orally modify the contract and
the sixth said that she did not remember orally modifying the contract. The Bear Stearns official
stated that E&Y was supposed to clear requested tasks with the RTC and, furthermore, no one at
Bear Stearns had the authority to make such modifications.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether E&Y’s billings under contract 700-90-0014
were in accordance with the contract terms and adequately supported. We reviewed $3,606,007
that E&Y billed the RTC for services performed from May 1992 through July 1992 under
contract 700-90-0014 that related to the RTC’s 1992 C-5 sales initiative. E&Y billed the RTC
an additional $24,000 for optional tasks that we did not review because they were billed as a
lump-sum amount as provided by the contract.




                                                 4
E&Y claimed that certain RTC officials either orally modified the contract or knew of others
who orally modified it. To determine whether the contract was orally modified, we interviewed

     •   RTC and Federal Deposit Insurance Corporation (FDIC) securitization unit, capital
         markets, and contracting department officials;

     •   E&Y’s government segment leader in Washington, D.C.; and

     •   a Bear Stearns managing director.

In addition, we reviewed the contract files and correspondence between E&Y, the RTC, and
Bear Stearns for written evidence of any contract modifications or authorizations to perform
additional services beyond the specified core tasks.

For its billings for required and optional tasks, we reviewed E&Y’s

     •   additions and deletions reports summarizing the number of loans at each site, which
         determined the number of loans included or excluded from the sale, and

     •   database edit reports containing detailed information on all loans in the loan database,
         which substantiated whether loans were deleted after being input into the loan database.

In addition, we interviewed a Bear Stearns managing director to determine whether Bear Stearns
excluded loans from the initiative before E&Y performed any work or after E&Y had completed
work and entered information into the loan database. We also reviewed site managers’
memorandums to determine the hourly rates and costs incurred on completed loans that were
included in and excluded from the sale.

For optional tasks, we also reviewed E&Y’s documentation supporting the number of loans
billed for various optional tasks as well as Bear Stearns’ instructions and correspondence to
determine whether the RTC or Bear Stearns authorized the tasks. For subcontracted site
inspections, we also compared the amounts that E&Y paid on subcontractor invoices to the
contractual limits and the amounts billed to the RTC.

For E&Y’s billings for additional services, we reviewed the contract and correspondence to
determine whether the RTC authorized the four categories of hourly labor fees that E&Y billed.
We reviewed selected supporting documentation (e.g., information prepared by site managers
and daily time logs) for the three categories with authorizations—Bear Stearns’ audit compare
(where Bear Stearns would compare its own database created from an independent review of the
loan files to E&Y’s loan database), additional services at field sites, and accounting services.
We did not review any supporting documentation for the remaining category—allocation of
management and fixed costs—because the contract prohibited those costs. Finally, for site
leasing and out-of-pocket expenses, we reviewed the contract files and supporting documentation
to determine whether the RTC had authorized those costs.




                                                5
We did not evaluate E&Y’s system of internal controls because the OIG concluded that the audit
objective could be met more efficiently by conducting substantive tests rather than placing
reliance on the internal control system. The OIG conducted the audit from June 1998 through
December 1998 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

We questioned $1,387,094 (38 percent) of $3,606,007 in E&Y’s invoices that we reviewed
because the billings were either not in accordance with the terms of the contract or not
adequately supported. Table 1 summarizes E&Y’s billings under contract 700-90-0014 that the
OIG reviewed and the amounts questioned.


Table 1: E&Y Billings Reviewed and Questioned Under Contract 700-90-0014
                      Cost Category                                 Reviewed     Questioned
 Fees for required and optional tasks                               $2,659,953     $545,015
 Hourly labor fees                                                    772,907        703,482
 Site leasing costs and out-of-pocket expenses                        173,147        138,597
 Totals                                                             $3,606,007   $1,387,094

Source: OIG analysis of E&Y’s bills and supporting documentation.



Based on our audit, the OIG recommended that the FDIC’s Associate Director, Acquisition
Services Branch, Division of Administration, disallow $1,387,094 of fees paid to E&Y under
contract 700-90-0014.


UNALLOWABLE AND UNSUPPORTED BILLINGS FOR REQUIRED AND
OPTIONAL TASKS

E&Y billed the RTC $2,659,953 for required and optional tasks primarily at fixed amounts per
loan based on the not-to-exceed caps per FAF specified by the contract. Those billings included
fixed amounts for loans included in and excluded from the sales transaction as well as other fees
such as NOI requests, pro formas, site inspections, packaging, assignment preparation, and
adjustable-rate mortgage audits. Of the $2,659,953 billed, we questioned $545,015 because
E&Y billed the RTC for duplicate and unauthorized tasks and unsupported work.

Table 2 summarizes E&Y’s billings and the associated questioned costs by loan category and
other tasks. The loan categories are loans included in the sale (completed/included), loans
excluded from the sale after being input into the loan database (completed/excluded), and loans
excluded from the sale before being input into the loan database (uncompleted/excluded).




                                                      6
Table 2: Questioned Costs for Required and Optional Tasks
                 Cost Category                        Billed                    Questioned
 Completed/included loans                           $1,830,150                   $       0
 Completed/excluded loans                              152,525                     105,150
 Uncompleted/excluded loans                            122,525                           0
 Other tasks                                           554,753                     439,865
 Totals                                             $2,659,953                   $545,015
Source: OIG analysis of E&Y bills and supporting documentation.



Loans Excluded from the Sale After Inclusion in the Loan Database

E&Y billed for 313 loans that were excluded from the sale after being input into the loan
database. However, available support showed that only 101 loans were excluded from the sale
after inclusion in the loan database. Accordingly, of the $152,525 that E&Y billed for
completed/excluded loans, we questioned $105,150, all of which is unsupported.

E&Y provided additions and deletions reports that showed the beginning number of loans at each
field site, the associated number of loans added and subtracted from the sale, and who excluded
the loans—the field site or Bear Stearns. A Bear Stearns managing director said that some loans
were excluded before E&Y performed any due diligence work. The managing director added
that if Bear Stearns excluded a loan that was not on the database edit report, E&Y did not receive
or perform any work on that loan. E&Y provided Bear Stearns with database edit reports that
detailed the loans that E&Y included in the loan database. We compared the loans shown as
excluded on E&Y’s additions and deletions reports to Bear Stearns’ database edit reports and
found that Bear Stearns deleted 101 loans after the loans had been input into the loan database
and another 197 loans that were not sent to E&Y. The 197 loans that Bear Stearns showed were
not sent to E&Y were within 15 of the 212 loans (313 billed less 101 supported) that E&Y billed
but could not support. Accordingly, we questioned $105,150, all of which is unsupported, that
E&Y billed the RTC for those 212 loans.


Other Tasks

E&Y billed $554,753 for other tasks billed primarily at fixed amounts per loan. Of that amount,
we questioned $439,865 (of which $89,077 is unsupported) because the tasks billed were already
included in the not-to-exceed caps for FAF preparation, were unauthorized or unsupported, or
exceeded the lower of per loan caps or actual payments to subcontractors. Table 3 summarizes
E&Y’s billings for other tasks and the amounts questioned.




                                                      7
Table 3: Questioned Costs for Other Tasks
                 Category of Tasks                                 Billed      Questioned
Extra packaging and assignment costs                              $126,433      $126,433
Assignment preparation                                              72,300        72,300
Packaging                                                           36,150        36,150
NOI requests                                                        88,000        86,852
Pro formas                                                          67,025        67,025
Site inspections                                                   154,885        51,105
Adjustable-rate mortgage audits                                      9,960             0
Totals                                                            $554,753      $439,865
Source: OIG analysis of E&Y bills and supporting documentation.



E&Y billed $126,433 for extra packaging and assignment costs, $72,300 for assignment
preparation, and $36,150 for packaging, or a total of $234,883. The contract defined assignment
preparation and recording of assignments as well as document delivery and associated packaging
costs as core tasks, which were included in the not-to-exceed caps per FAF. Accordingly, we
questioned the total $234,883 billed for those tasks.

E&Y billed $20 each for NOI requests for all 4,400 loans included in the sale, or a total of
$88,000. According to Bear Stearns’ correspondence, E&Y did not have to request NOI
information for loans with balances under $200,000. However, E&Y billed $64,800 for
soliciting NOI information on 3,240 loans with balances under $200,000. Accordingly, E&Y
billed $64,800 of the $88,000 for unauthorized tasks. For the remaining $23,200 billed for NOI
requests, E&Y provided supporting documentation for only $1,148 in costs incurred at three
field sites leaving $22,052 in unsupported costs. Accordingly, we questioned a total of $86,852
of the $88,000 billed, of which $22,052 is unsupported.

E&Y also billed a total of $67,025 for pro formas on 228 loans at either $175 or $350 per loan.
The contract limited E&Y to the lower of hours incurred at specified hourly rates or the
not-to-exceed cap per loan of $350. However, E&Y did not provide any documentation of the
hours incurred at specified hourly rates. Accordingly, we questioned the entire $67,025 billed
for pro formas, all of which is unsupported.

In addition, E&Y billed $154,885 for performing site inspections on 492 loans. E&Y provided
documentation that substantiated 492 site inspections performed by subcontractors. Although
E&Y proposed a not-to-exceed cap of $225 per loan for site inspections, it billed from $225 to
$369 per loan. E&Y paid its subcontractors from $100 to $1,000 per loan. We calculated the
allowable site inspection billings based on the lower of E&Y’s payments to the subcontractors or
the not-to-exceed cap of $225 per loan, which totaled $103,780. Accordingly, we questioned the
remaining $51,105 that E&Y billed for site inspections.




                                                      8
UNALLOWABLE AND UNSUPPORTED HOURLY LABOR BILLINGS

E&Y billed the RTC $772,907 in hourly labor fees for the Bear Stearns audit compare,
additional services at field sites, allocation of management and fixed costs, and accounting
services. Of that amount, we questioned $703,482, of which $102,798 is unsupported, because
the fees were either unallowable or unsupported. Table 4 summarizes the questioned costs by
category of labor billings.


Table 4: Questioned Costs for Hourly Labor Billings
               Category of Billings                  Billed                    Questioned
 Bear Stearns audit compare                         $225,676                    $225,676
 Additional services at field sites                  212,122                     202,697
 Allocation of management and fixed costs            211,949                     211,949
 Accounting services                                 123,160                      63,160
 Totals                                             $772,907                    $703,482
Source: OIG analysis of E&Y bills and supporting documentation.



Bear Stearns Audit Compare

E&Y billed $225,676 on an hourly basis for the Bear Stearns audit compare. However, the audit
compare was part of two core tasks—data aggregation and data dissemination. Accordingly, we
questioned the entire $225,676 that E&Y billed as unallowable fees.

The contract required E&Y to perform certain core tasks, including constructing an electronic
loan database with any errors corrected that were found during due diligence (data aggregation)
and providing copies of the initial, intermediate, and audited aggregate loan files (data
dissemination). During the audit compare, Bear Stearns compared its database, which it had
created and updated based on a separate review of the loan files, to E&Y’s loan database and
provided E&Y with audit exception reports on discrepancies. In response, E&Y reviewed and
corrected its loan database, as necessary.

E&Y’s billing file showed that the audit compare took place between June 29, 1992 and July 20,
1992. Comments on E&Y’s billing worksheets during that 22-day period show that most of the
employees charged the bulk of their time to the core task labeled aggregation process/data
collection (data aggregation). Accordingly, the $225,676 that E&Y billed on an hourly basis for
the Bear Stearns audit compare was unallowable because the associated tasks were included in
the not-to-exceed caps per FAF.




                                                      9
Additional Services at Field Sites

E&Y billed $212,122 on an hourly basis for additional services at field sites. Of that amount, the
RTC authorized additional services related to $112,223 of the billings. However, E&Y provided
support for only $9,425 of the authorized additional services billed. Accordingly, of the
$212,122 billed for additional services, we questioned $202,697, of which $102,798 is
unsupported. Table 5 summarizes the activities that E&Y billed at hourly labor rates for
additional services and the amounts that we questioned.


Table 5: Questioned Costs for Additional Services at Field Sites
                       Service Category                          Billed                               Questioned
 Evaluate prior due diligence                                  $ 3,036                                 $ 3,036
                              a
 Redo FAFs already prepared                                       24,585                                 19,319
 Change file index                                                14,804                                 14,804
                                                       a
 Track inspection reports addresses and phone numbers             37,616                                 36,978
 Set up of office                                                 14,200                                 14,200
 Match, locate, and move files                                    49,178                                 49,178
 Evaluate loans excluded by servicers                             15,559                                 15,559
                                                  a
 Change in evaluation criteria for excluding loans                22,735                                 19,322
                                                     a
 Prepare additional computer reports and crack tapes              18,714                                 18,714
 Duplicate preparation and review                                  1,272                                  1,272
 Inventory loans from various locations                              325                                    325
 Locked out of facility                                            1,525                                  1,525
 Search for loans under $10,000a                                   8,573                                  8,465
 Total                                                         $212,122                                $202,697
a
    Included in additional authorized services totaling $112,223, of which $102,798 is unsupported.

Source: OIG analysis of E&Y bills and supporting documentation.

The contract’s scope of services defined the core tasks included in the not-to-exceed caps per
FAF as all required tasks. The contract also provided that E&Y should bill (1) any approved
services not included in the core tasks at current billing rates announced by the RTC and
(2) reasonable and customary expenses related to the performance of such approved additional
services. Correspondence between E&Y, the RTC, and Bear Stearns documented requests for
the following additional services at field sites:

          •   redoing FAFs already prepared because of form changes,

          •   tracking addresses for inspection reports,

          •   changing evaluation criteria for excluding loans,




                                                           10
      •   preparing additional computer reports, and

      •   searching for loans under $10,000.

E&Y billed $112,223 for those authorized additional services at field sites but provided support
for only $9,425 of that amount. E&Y did not provide supporting documentation for the
remaining $102,798 in authorized additional services. E&Y also billed $99,899 for additional
services that were not authorized. Examples of unauthorized tasks that E&Y billed included
time incurred setting up offices, matching legal and bank working files, locating missing files,
and moving files in and out of the vault. Those were core tasks covered by the not-to-exceed
caps per FAF.


Allocation of Management and Fixed Costs

E&Y billed $211,949 for allocated management and fixed costs because the number of assets
included in the sale was significantly smaller than had been anticipated in the request for
proposal. However, the RTC and Bear Stearns reserved the right under the contract to add or
subtract loans and institutions from the transaction without renegotiating the price. Also, the
contract made E&Y solely responsible for its costs and did not provide for the allocation of
overhead costs. Accordingly, we questioned the entire $211,949 that E&Y billed for allocated
management and fixed costs.


Accounting Services

E&Y billed the RTC $123,160 for accounting services, which consisted of its proposed $60,000
flat fee plus $63,160 for additional trust auditor services billed at hourly labor rates. E&Y billed
$40,000 for an extra letter and preliminary prospectus procedures, $16,600 for special loan
modeling, $3,450 for rating agency meetings, $1,725 for payment history verifications, and
$1,385 for underwriter services.

The contract specified a $60,000 flat fee for trust auditor services, which required E&Y to

      •   recompute statistical information in the prospectus,

      •   model remaining cash flows,

      •   generate price/yield sensitivity tables for specific classes of loans,

      •   provide pricing letters after performing certain procedures, and

      •   roll the current balance for each mortgage to the cut-off date.

We questioned the remaining $63,160 that E&Y billed for other trust auditor services at hourly
rates because the contract limited trust auditor services to a $60,000 flat fee regardless of the




                                                   11
costs incurred. In addition, E&Y did not provide any documents to support that Bear Stearns or
the RTC authorized the additional trust auditor services.


UNALLOWABLE SITE LEASING AND OUT-OF-POCKET EXPENSES

E&Y billed the RTC $173,147 for site leasing and out-of-pocket expenses. We questioned
$138,597 of that amount that E&Y billed for leasing office space at hourly rates and
unauthorized out-of-pocket expenses.


Site Leasing Expenses

Of the $52,930 that E&Y billed for leasing office space at the Midland site, $21,045 represented
hours incurred by E&Y personnel to lease the space. E&Y billed the remaining $31,885 for
telephone, utility, and office and equipment rental expenses. Although the contract authorized
E&Y to lease office space at the Midland site and incur expenses such as telephone, insurance,
and electricity, it did not authorize labor costs associated with leasing the office space.
Accordingly, we questioned the $21,045 in hourly labor charges billed by E&Y.

Out-of-Pocket Expenses

E&Y billed the RTC $120,217 for out-of-pocket expenses, of which $2,665 related to additional
authorized services for which E&Y provided support. However, we questioned the remaining
$117,552, because those costs related to either required tasks included in the not-to-exceed caps
per FAF or additional services that neither the RTC nor Bear Stearns authorized. Table 6
summarizes the amounts billed and questioned for out-of-pocket expenses grouped by E&Y
billing category.


Table 6: Questioned Costs for Out-of-Pocket Expenses
              E&Y Billing Category                    Billed                    Questioned
 Loan due diligence                                  $ 23,536                    $ 23,536
 Additional services at field sites                    42,352                      42,352
 Audit compare and other data analysis services        14,953                      14,953
 Allocation of management and fixed costs              23,852                      23,852
 Servicer charges                                       3,769                       1,104
 Data sheet copying and transportation                 12,945                      12,945
 E&Y adjustment to August 11, 1992 invoice             (1,190)                     (1,190)
 Totals                                              $120,217                    $117,552
Source: OIG analysis of E&Y bills and supporting documentation.




                                                     12
The contract provided that out-of-pocket expenses for required tasks were included in the
not-to-exceed caps per FAF and that E&Y could bill reasonable and customary out-of-pocket
expenses for authorized additional services not covered by the not-to-exceed caps. Also, the
contract entitled E&Y to reimbursement for servicer fax charges and overtime pay for servicers’
employees needed on weekdays after 5:00 p.m. and on Saturdays. E&Y’s proposal indicated
that the not-to-exceed caps for preparing FAFs included normal out-of-pocket expenses such as
travel, hotel, document delivery, and messenger services.

E&Y’s supporting documentation showed that the $120,217 that E&Y billed for out-of-pocket
expenses included items such as food, lodging, transportation, administrative costs, document
delivery, photocopying, and servicer charges. With the exception of $2,665 in overtime pay for
servicer employees, the expenses claimed either related to required tasks included in the
not-to-exceed caps per FAF or unauthorized additional services. Accordingly, we questioned
$117,552 of the $120,217 that E&Y billed for additional out-of-pocket expenses.


CONCLUSIONS AND RECOMMENDATIONS

Of $3,606,007 in E&Y’s billings to the RTC that we reviewed under contract 700-90-0014, we
questioned $1,387,094 (38 percent), of which $297,025 is unsupported. Accordingly, we
recommend that the Associate Director, Acquisition Services Branch, Division of
Administration, take the following actions:

     (1) Disallow $545,015 (questioned costs, $194,227 of which is unsupported) that E&Y
         billed primarily at fixed amounts for required and optional tasks.

     (2) Disallow $703,482 (questioned costs, $102,798 of which is unsupported) that E&Y
         billed as additional hourly labor fees.

     (3) Disallow $138,597 (questioned costs) that E&Y billed for site leasing and
         out-of-pocket expenses.


CORPORATION COMMENTS AND OIG EVALUATION

On April 6, 1999, the Associate Director, Acquisition Services Branch, Division of
Administration, provided a written response to a draft of this report. The Associate Director’s
response agreed with the recommendations and provided the requisites for a management
decision on each of the three recommendations. The response is not summarized because the
actions planned or completed are identical to those recommended. The Associate Director’s
response is presented as Appendix I to this report.




                                                13
Appendix I                                                                           Appendix I
                                    CORPORATION COMMENTS

FDIC
Federal Deposit Insurance Corporation
Washington, D.C. 20429                                                Division of Administration




DATE:                              April 6, 1999

MEMORANDUM TO:                     Sharon M. Smith
                                   Director, Field Audit Operations
                                   Office of Inspector General




FROM:                              Michael J. Rubino
                                   Associate Director
                                   Acquisition Services Branch

SUBJECT:                           MANAGEMENT DECISION
                                   Draft Report Entitled “Kenneth Leventhal’s Billings for Due
                                   Diligence Services Under Contract 700-90-0014 and Letter
                                   Agreement Dated May 26, 1992”

The Acquisition Services Branch (ASB) has completed its initial review of the subject Office of
Inspector General (OIG) draft report. Our review focused on those recommendations in the
report that would be entered into the Internal Review Information System (IRIS). The
management decision is presented in three parts: (I) the Executive Summary; (2) Management
Decision detail; and (3) an Office of Internal Control Management working summary, presented
as Exhibit A.

EXECUTIVE SUMMARY

The following table represents an overview of the management decision. A more comprehensive
summary of the decision that details specific areas of agreement or disagreement with the
findings and describes necessary corrective actions, including milestone dates, is presented in the
table below.




                                                   14
Appendix I                                                                         Appendix I

Finding #        Finding Description      Questioned      Management      Recovery       Difference
                                            Costs          Response        Amount
1            Unallowable Billings for   $545,015         Agree          $545,015        $0
             Required and Optional Tasks
2            Unallowable Hourly Labor    $703,482        Agree          $703,482        $0
             Billings
3            Unallowable Site Leasing    $138,597        Agree          $138,597        $0
             and Out-of-Pocket Expenses

MANAGEMENT DECISION

FINDING #1: Unallowable and Unsupported Billings For Required and Optional Tasks

CONDITION: OIG questioned $545,015 that Ernst & Young (E&Y) billed in fixed fees. The
questioned fees were because E&Y billed for loans excluded from the sale after inclusion in the
loan database, tasks already included in the not-to-exceed caps for FAF preparation,
unauthorized or unsupported tasks, and payments that exceeded the lower of per loan caps or
actual payments to subcontractors.

RECOMMENDATION: The FDIC should disallow $545,015 that E&Y billed which were
unallowable or unsupported for required and optional tasks.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow E&Y an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.

FINDING #2: Unallowable and Unsupported Hourly Labor Billings

CONDITION: E&Y billed $703,482 in hourly charges that were duplications of costs included
in fixed-fee billings, unallowable, or unsupported.

RECOMMENDATION: The FDIC should disallow $703,482 billed as additional hourly labor
fees for core tasks included in the fixed fees per loan or unsupported.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow E&Y an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to




                                               15
Appendix I                                                                      Appendix I

recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.

FINDING #3: Unallowable Site Leasing and Out-of-Pocket Expenses

CONDITION: E&Y invoiced $138,597 in expenses not authorized by RTC, including billing
for leasing office space at hourly rates and unauthorized out-of-pocket expenses.

RECOMMENDATION: The FDIC should disallow $138,597 that E&Y billed as hourly to
lease space and out-of-pocket expenses for normal and usual costs, which according to the
contract, were to be assumed by E&Y.

MANAGEMENT DECISION: We agree with the recommendation.

CORRECTIVE ACTION: We will allow E&Y an opportunity to refute the OIG findings and
consider whatever information they have to provide before we decide what amount to seek to
recover. Also, in conjunction with the Division of Legal Services, we will review the
circumstances surrounding this overpayment. We will consider our legal position and determine
how much of the questioned costs to attempt to recover. We will then take appropriate measures
to resolve the questioned costs.


cc:    Howard Fumer
       Andrew Nickle
       Mary Rann




                                              16
Appendix I                                                                                                                                            Appendix I
                                                                          EXHIBIT A

                                               SUMMARY OF ACQUISITION SERVICES BRANCH MANAGEMENT DECISIONS




NO.          FINDING DESCRIPTION                 QUESTIONED     MANAGE-             DESCRIPTION OF CORRECTIVE ACTION                    EXPECTED         DOCUMENT
                                                 COST/OTHER      MENT                                                                  COMPLETION        VERIFYING
                                                  FINANCIAL    RESPONSE                                                                   DATE          COMPLETION
                                                 ADJUSTMENT

1     Unallowable Billings for Required and   $545,015        Agree        CORRECTIVE ACTION: We will allow E&Y an opportunity         December 31,    Settlement
      Optional Task                                                        to refute the OIG findings and consider whatever            1999            Agreement
                                                                           information they have to provide before we decide what
                                                                           amount to seek to recover. Also, in conjunction with the
                                                                           Division of Legal Services, we will consider the
                                                                           circumstances surrounding this overpayment. We will
                                                                           consider our legal position and determine how much of the
                                                                           questioned costs to attempt to recover. We will then take
                                                                           appropriate measures to resolve the questioned costs.

2     Unallowable Hourly Labor Billings       $703,482        Agree        CORRECTIVE ACTION: We will allow E&Y an opportunity         December 31,    Settlement
                                                                           to refute the OIG findings and consider whatever            1999            Agreement
                                                                           information they have to provide before we decide what
                                                                           amount to seek to recover. Also, in conjunction with the
                                                                           Division of Legal Services, we will consider the
                                                                           circumstances surrounding this overpayment. We will
                                                                           consider our legal position and determine how much of the
                                                                           questioned costs to attempt to recover. We will then take
                                                                           appropriate measures to resolve the questioned costs.

3     Unallowable Site Leasing and Out-of-    $138,597        Agree        CORRECTIVE ACTION: We will allow E&Y an opportunity         December 31,    Settlement
      Pocket and Expenses                                                  to refute the OIG findings and consider whatever            1999            Agreement
                                                                           information they have to provide before we decide what
                                                                           amount to seek to recover. Also, in conjunction with the
                                                                           Division of Legal Services, we will consider the
                                                                           circumstances surrounding this overpayment. We will
                                                                           consider our legal position and determine how much of the
                                                                           questioned costs to attempt to recover. We will then take
                                                                           appropriate measures to resolve the questioned costs.




                                                                              17
                                                                                                                                                           Appendix II
                                                            MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual reports to the
Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must
describe for each recommendation

     • the specific corrective actions already taken, if applicable;

     • corrective actions to be taken together with the expected completion dates for their implementation; and

     • documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the case
of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of
corrective actions are responsive to its recommendations.
This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management
decisions is based on management's written response to our report and subsequent discussions with management representatives.


                                                                                    Expected         Documentation That                      Management
   Rec.                                                                            Completion        Will Confirm Final       Monetary        Decision:
  Number                Corrective Action: Taken or Planned / Status                  Date                 Action             Benefits        Yes or No

      1        The Associate Director, Acquisition Services Branch, agreed           12/31/99       Settlement agreement.      $545,015           Yes
               with the recommendation and stated that, in conjunction with the                                               disallowed
               Division of Legal Services, the Division of Administration would                                                  cost
               review the circumstances surrounding this overpayment and take
               appropriate measures to resolve the questioned costs.
      2        The Associate Director, Acquisition Services Branch, agreed           12/31/99       Settlement agreement.      $703,482           Yes
               with the recommendation and stated that, in conjunction with the                                               disallowed
               Division of Legal Services, the Division of Administration would                                                  cost
               review the circumstances surrounding this overpayment and take
               appropriate measures to resolve the questioned costs.
      3        The Associate Director, Acquisition Services Branch, agreed           12/31/99       Settlement agreement.      $138,597           Yes
               with the recommendation and stated that, in conjunction with the                                               disallowed
               Division of Legal Services, the Division of Administration would                                                  cost
               review the circumstances surrounding this overpayment and take
               appropriate measures to resolve the questioned costs.


                                                                                       18
